No. 19-756

 

IN THE

Supreme Court of the United States

 

LOUIS TAYLOR,
Petitioner,
v.
PIMA COUNTY, ARIZONA, et al.,
Respondents.

 

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

 

BRIEF OF LUCIAN E. DERVAN AS AMICUS CURIAE IN
SUPPORT OF PETITIONER

 

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 4,498 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct. Executed on January 9, 2020.

Charles Trost, Counsel of Record
Belmont University College of Law

1900 Belmont Blvd, Nashville TN 37212
(615) 460-8299 charles.trost@belmont.edu
